The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
    UNITED STATES INTERNATIONAL TRADE COMMISSION
                         OFFICE OF INSPECTOR GENERAL

                                 WASHINGTON, DC 20436




June 24, 2013                                                       IG-LL-009

Chairman Williamson:

This memorandum transmits the Office of Inspector General’s final report, Audit of
Public-Facing Endpoints, OIG-AR-13-10. This audit focused on whether the
Commission blocks access to network ports that should not respond to the Internet. In
finalizing this report, we analyzed management’s comments to our draft report and have
included those comments in their entirety as Appendix A.

This audit identified two problem areas that culminated in a lack of security for public-
facing endpoints. This report presents three recommendations to address the identified
problem areas. In the next 30 days, please provide me with your management decisions
describing the specific actions that you will take to implement each recommendation.

Thank you for the courtesies extended to the auditors during this review.




Philip M. Heneghan
                              U.S. International Trade Commission
                                                     Audit Report

                                                Table of Contents

Results of Audit............................................................................................. 1

Problem Areas............................................................................................... 2
   Problem Area 1: The Commission did not block access to ports that should not
   respond to the Internet. ................................................................................................... 2

   Problem Area 2: The Commission did not perform ongoing scanning to detect
   responding ports.............................................................................................................. 3

Objective, Scope and Methodology............................................................. 4

Appendix A: Management Comments on Draft Report...........................A




OIG-AR-13-10                                                  -i-
                     U.S. International Trade Commission
                                     Audit Report


                                 Results of Audit
The purpose of this audit was to answer the question:

       Apart from its intrusion prevention systems, has the Commission secured its
          public-facing endpoints?

No. The Commission did not secure its public-facing endpoints.

To secure its public-facing endpoints, the Commission must block access to network
ports that should not respond to the Internet.

The ITC’s computer network has over 500 systems, consisting of servers, desktops,
laptops, printers, phones, and network infrastructure devices. Every computer is
connected to the network with a unique IP (Internet Protocol) address. For example, a
desktop PC on the ITC network might have an address like 192.168.50.40. A typical
Windows PC could have more than 20 responding ports. Each port serves a function; for
instance, an Internet browser connects to port 80 to request web pages from a webserver,
and email servers use port 25 to transfer messages. It would be normal for an unprotected
network of 500 systems to present 10,000 responding ports, all potential targets for
attack.

The goal of perimeter defense is to minimize the number and exploitability of responding
ports, known as the “attack surface.” A network with no responding ports is not a
network: responding ports are required to communicate. Devices such as firewalls are
configured to limit the number of ports exposed to the Internet, and newer technologies
such as Intrusion Detection and Prevention Systems (IDPS) can provide additional
protection.

When accessed from the Internet, ITC’s network should have had 14 responding IP
addresses and 26 responding ports to provide the services necessary to support USITC’s
business functions.

Our scan of responding network ports identified the following:

   x   41 responding ports from 18 different IP addresses,
   x   15 of 41 ports that should not have responded to our scans,
   x   4 of 18 IP addresses were detected that should not have been visible, and
   x   Two ports responded with a telnet login prompt to a network device.

When we identified ports that should not have been responding, we immediately notified
the CIO’s office, who then took action to block Internet access to those ports.




OIG-AR-13-10                              -1-
                     U.S. International Trade Commission
                                     Audit Report


We conducted two audits simultaneously. One audit examined the effectiveness of the
Commission’s perimeter defense and found that taken as a whole; the Commission’s
perimeter defense was effective. (Report No…) This audit examined a single component
(responding ports) of the Commission’s perimeter defense. As each component is
strengthened, the Commission’s defense as a whole is improved. Resolving the two
problems we identified will reduce the risk to the Commission’s network. These problem
areas are: the Commission did not block access to ports that should not respond to the
Internet, and it did not perform ongoing scanning to detect vulnerabilities. These problem
areas are detailed below.



                                  Problem Areas

                                  Problem Area 1:
                   The Commission did not block access to ports that
                         should not respond to the Internet.



When a device is installed on a high-risk, Internet-accessible network, it must be
configured to provide the required functionality while limiting risk. This is typically
managed by blocking Internet access to ports not necessary for required functionality.

We identified 15 open ports on the USITC network that should not have been accessible
to the Internet. Two of these ports provided a login screen for direct access to network
devices, as seen in the screenshot below:




OIG-AR-13-10                               -2-
                     U.S. International Trade Commission
                                     Audit Report


This type of access should never be allowed to the Internet, especially for a network
device. In this case, new hardware was installed on the Commission’s network, but it
was not configured to deny this type of access. A failure to secure network equipment
increases the risk to the entire network supported by these devices.

Recommendation 1: Block ports that should not be exposed to the Internet.



                                Problem Area 2:
      The Commission did not perform ongoing scanning to detect responding
                                     ports.


Networks and their systems evolve over time, either deliberately or by chance.
Installation and maintenance of devices can result in the inadvertent exposure of ports
that should not be accessible to the Internet. The best means to detect and enable the
resolution of these problems is through thorough scanning of the devices before they are
exposed to the Internet, and through routine scanning of the network perimeter to detect
any ports that should not be open.

At the time of the audit, the Commission was not performing routine scanning of its
perimeter. Because scanning was not being performed, CIO staff were unaware that
ports were open that should not have been accessible from the Internet.

The best means of mediating this risk is through vulnerability scanning, on both a
periodic basis and on-demand any time a change is made to the environment.

Recommendation 2: Perform scheduled, routine scanning of all perimeter devices on at
least a monthly basis.

Recommendation 3: Perform perimeter device scans after new hardware or software is
introduced to the ITC perimeter network.




OIG-AR-13-10                               -3-
                     U.S. International Trade Commission
                                     Audit Report


                    Objective, Scope and Methodology
Objective:

       x   Apart from its intrusion prevention systems, has the Commission secured its
           public-facing endpoints?

Scope:
This audit documented all non-SMTP responding ports and corresponding IP addresses
accessible from the Internet on ITCNet during the month of July, 2012. This audit
enumerated the available points of access, and described the specific access methods for
these access points.

Methodology:
1. The CIO whitelisted the scanning source address so scans would not be blocked by
   the Intrusion Prevention System.
2. Using the information provided by the Commission, we performed device service
   discovery using a toolset that included Nessus, Nmap, and applications within the
   BackTrack tool suite.
3. We analyzed and described accessible devices and services.
4. We compared accessible devices and services with those required to provide business
   services to the public.




OIG-AR-13-10                              -4-
               U.S. International Trade Commission
                           Appendix A




    Appendix A: Management Comments on Draft Report




OIG-AR-13-10                  -A-
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
